T
S

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals

No. 19-20374
Summary Calendar
CURTIS WIGGINS,

Fifth Circuit

FILED
February 3, 2020
Lyle W. Cayce
Clerk

Plaintiff - Appellant
v.

GOLDEN CORRAL CORPORATION,
Defendant - Appellee

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:18-CV-573
Before SMITH, DENNIS, and DUNCAN, Circuit Judges.
PER CURIAM:*
Curtis Wiggins brought a state-law defamation claim and a failure-topromote claim under Title VII against the defendant, Golden Corral
Corporation. The district court granted summary judgment in favor of Golden
Corral on both claims. We affirm.

Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not

be published and is not precedent except under the limited circumstances set forth in 5TH
Cffi. R. 47.5.4.

Additional material
from this filing is
available in the
Clerk's Office.

